                                               July 12, 1999

MEMORANDUM FOR THE SECRETARY

FROM:                  Gregory H. Friedman (Signed)
                       Inspector General

SUBJECT:               INFORMATION: Audit Report on "Management of Laboratory Directed
                       Research and Development at the National Renewable Energy Laboratory"

BACKGROUND

The Department of Energy's (Department) National Renewable Energy Laboratory (NREL) is the Nation's
only national laboratory dedicated to furthering the development and commercialization of renewable energy
and energy efficiency technologies. NREL's mission is to lead the Nation toward a sustainable energy future
by developing renewable energy technologies, improving energy efficiency, advancing related science and
engineering, and facilitating commercialization. As part of its mission, NREL performs discretionary
research and development, more commonly known throughout the Department as Laboratory Directed
Research and Development (LDRD). The objective of this audit was to determine how NREL implemented
its LDRD program in relation to Department requirements.

RESULTS OF AUDIT

Although it was NREL's intention to meet the Department's requirements for LDRD, it used LDRD funds
for projects that were not science- or research and development- based. Consequently, NREL spent about
$2.5 million on projects that did not meet the requirements of the Department's LDRD program. In addition,
NREL did not properly account for some LDRD costs, and some projects incurred questionable housing
allowance costs.

MANAGMENT REACTION

Management concurred with our recommendations and has initiated or is planning corrective actions.
However, management took exception to our conclusion that 21 projects involving discretionary research
and development were "questionable" because they did not qualify as Laboratory Directed Research and
Development as defined by DOE Order 413.2. Management restated its position that the Order, technically,
did not apply to NREL's LDRD program. In the audit report, we acknowledged that the Order did not
specifically apply to NREL. However, we both agreed that the Order was the best basis for managing the
LDRD program. Therefore, we used it as a benchmark for evaluating NREL's program during the audit. To
clarify this matter, during the audit, the Assistant Secretary for Energy Efficiency and Renewable Energy
issued a policy stating that NREL's discretionary research and development would be managed in a manner
consistent with the Department's policy on LDRD at multi-program funded laboratories.

Attachment

cc: Deputy Secretary
    Under Secretary
WR-B-99-05




        AUDIT
       REPORT

                            MANAGEMENT OF LABORATORY
                              DIRECTED RESEARCH AND
                                DEVELOPMENT AT THE
                            NATIONAL RENEWABLE ENERGY
                                   LABORATORY




                                          JULY 1999




   U.S. DEPARTMENT OF ENERGY
  OFFICE OF INSPECTOR GENERAL
    OFFICE OF AUDIT SERVICES
                                               July 12, 1999

MEMORANDUM FOR THE MANAGER, GOLDEN FIELD OFFICE

FROM:                 Lawrence R. Ackerly, Regional Manager (Signed)
                      Western Regional Audit Office
                      Office of Inspector General

SUBJECT:              INFORMATION: Audit Report on "Management of Laboratory              Directed Research
                      and Development at the National Renewable Energy Laboratory"

BACKGROUND

The Department of Energy's (Department) National Renewable Energy Laboratory (NREL) is the only
national laboratory dedicated to furthering the development and commercialization of renewable energy and
energy efficiency technologies. NREL's mission is to lead the Nation toward a sustainable energy future by
developing renewable energy technologies, improving energy efficiency, advancing related science and
engineering, and facilitating commercialization. As part of its mission, NREL performs discretionary
research and development, more commonly known as Laboratory Directed Research and Development
(LDRD). The objectives of the Department's LDRD program include maintaining the scientific and technical
vitality of laboratories; fostering creativity and stimulating the exploration of forefront science and
technology; and supporting high-risk, potentially high-value research and development. The objective of this
audit was to determine how NREL implemented its LDRD program in relation to Department requirements.

RESULTS OF AUDIT

Although it was NREL's intention to meet the Department's requirements for LDRD, it funded projects that
were not science-based or research and development. Of 60 projects reviewed, we concluded that 21 did
not have the characteristics of an LDRD project. Consequently, NREL spent about $2.5 million on projects
that were not LDRD. In addition, NREL did not properly account for $72,286 in LDRD costs and incurred
questionable housing allowance costs of $10,177.

MANAGEMENT REACTION

Golden Field Office (Field Office) management concurred with our recommendations and has initiated or is
planning corrective actions. However, management took exception to the report’s conclusion that 21
projects involving discretionary research and development were "questionable" because they did not qualify
as "Laboratory Directed Research and Development" as defined by Department of Energy (DOE) Order
413.2. Management stated that the report's conclusion was based on the fact that projects were not solely
"science-based or research and development" as defined in the Order.
MANAGEMENT OF LABORATORY DIRECTED RESEARCH AND
DEVELOPMENT AT THE NATIONAL RENEWABLE ENERGY LABORATORY

TABLE OF
CONTENTS



                 Overview

                 Introduction and Objective .............................................. 1


                 Conclusions and Observations ....................................... 1


                 LDRD Program Projects


                 Details of Finding ............................................................ 3


                 Recommendations and Comments ................................. 5


                 Cost Controls


                 Details of Finding ............................................................ 8


                 Recommendations and Comments ................................. 9


                 Appendices


                 Scope and Methodology ............................................... 10


                 Questionable Projects ................................................... 11


                 Assistant Secretary for Energy Efficiency
                 and Renewable Energy Policy ...................................... 14
Overview
INTRODUCTION      The Department of Energy's (Department) National Renewable
AND OBJECTIVE     Energy Laboratory (NREL), located in Golden, Colorado, is the
                  only national laboratory dedicated to furthering the development
                  and commercialization of renewable energy and energy efficiency
                  technologies. NREL's mission is to lead the Nation toward a sustainable
                  energy future by developing renewable energy
                  technologies, improving energy efficiency, advancing related science and
                  engineering, and facilitating commercialization. As part of its mission,
                  NREL performs discretionary research and development,
                  more commonly known as Laboratory Directed Research and
                  Development (LDRD). According to the Golden Field Office (Field
                  Office), the LDRD program had a cumulative approved ceiling of
                  $16.5 million for the period covering Fiscal Years (FYs) 1995 through
                  1998. Our audit objective was to determine how NREL implemented its
                  LDRD program in relation to Department requirements.

CONCLUSIONS AND   Although it was NREL's intention to meet the Department's
OBSERVATIONS      requirements for LDRD, it funded projects that were not science-
                  based or research and development. Most of the 60 LDRD projects
                  reviewed met the Department's requirements for LDRD. However,
                  we concluded that 21 did not. These projects, for example, did not
                  have the characteristics of an LDRD project or required funding other
                  than LDRD funding to be completed. Consequently, NREL spent about
                  $2.5 million on projects that were not LDRD. In addition, NREL did
                  not properly account for some LDRD costs, and its LDRD program
                  incurred questionable housing allowance costs.

                  Previous Office of Inspector General (OIG) reports have disclosed
                  problems with LDRD. In November 1997, the OIG issued report
                  CR-B-98-02, Audit of Management of the Laboratory Directed
                  Research and Development Program at the Lawrence Livermore
                  National Laboratory. The audit concluded that an increase in the
                  level of discretionary research was primarily obtained at the expense
                  of Department-directed research. In August 1989, the OIG issued
                  report ER-0-89-11, Discretionary Funds at the Princeton Plasma
                  Physics Laboratory. The audit concluded that, while the funds were
                  used in accordance with mission needs, no adequate policy and guidance
                  existed on the use of the funds. Therefore, no determination could be
                  made as to whether the funds were used on authorized Department
                  projects. Finally, in May 1989, the OIG issued report
                  DOE/IG-0267, Exploratory Research and Development Funds at




Page 1                                               Introduction And Objective/
                                                     Conclusions And Observations
         Los Alamos National Laboratory. The audit disclosed that Los Alamos
         National Laboratory funded unauthorized discretionary projects.

         In addition, a prior audit disclosed problems with cost controls. In
         February 1993, the OIG issued report DOE/IG-0321, Allowable Costs
         at Department of Energy Management and Operating Contractors.
         The audit disclosed that the Department was reimbursing contractors
         for costs that were considered to be unallowable because they were not
         reasonable. This condition was similar to the questionable costs for
         housing allowance expenses identified during our current audit at
         NREL.

         In our opinion, the matters discussed in this report should be considered
         when preparing the yearend assurance memorandum on internal
         controls.




                                          ______(Signed)_________
                                          Office Of Inspector General




Page 2                                      Conclusions And Observations
LDRD PROGRAM PROJECTS
Program             Public Law 95-39, Energy Research Act (Public Law) provides NREL
Requirements        the authority to use a reasonable amount of its operating budget to
                    fund employee-suggested research projects to the pilot state of
                    development. Department Order 413.2, Laboratory Directed Research
                    and Development (Order) implements the Public Law by establishing the
                    requirements for LDRD and lists those laboratories to which the Order
                    applies. Although NREL is not specifically included in the Order, the
                    Field Office pointed out and NREL management agreed that the Order
                    provided the best basis for managing its LDRD program.

                    These LDRD requirements stipulate that:

                       • Projects must be in the forefront of science and technology and
                         normally should include one or more of the following
                         characteristics.

                           (1) Advanced study of hypotheses, concepts, or innovative
                               approaches to scientific or technical problems.

                           (2) Experiments and analyses directed towards "proof of
                               principle" or early determination of the utility of new
                               scientific ideas, technical concepts, or devices.

                           (3) Conception and preliminary technical analyses of
                               experimental facilities or devices.

                       • Non-LDRD funds must not be used to accomplish the technical
                         goals of a LDRD project.

                    These requirements function as benchmarks through which the
                    implementation of the LDRD program can be measured.

                    NREL funded projects that were not science-based or research and
Questionable LDRD
                    development. Of 60 projects reviewed, we questioned 21 because they
Projects
                    did not meet the requirements set forth in the Order. Projects such as
                    The Green Market Initiative and South Africa Electricity Policy Project
                    focused on generating new business opportunities for NREL. The
                    expected outcomes of two other projects, Plan and Co-Host the First
                    Conference on Frontiers of Pyrolysis and Flat Panel Display-Third
                    Annual NREL Conference on Thermophotovoltaic Generation of
                    Electricity, were to plan, arrange, and host conferences during




Page 3                                                                 Details Of Finding
                    June 25-30, 1995 and May 18-21, 1997, respectively. While these and
                    other projects, as listed in Appendix 2, may have benefited NREL, they
                    were not science-based or research and development and, thus, should
                    not have been funded through the LDRD program. When we presented
                    a list of the 21 questionable projects and discussed 9 of these projects in
                    detail with Department and NREL officials, they did not dispute our
                    conclusions. An official from the Office of the Assistant Secretary for
                    Energy Efficiency and Renewable Energy (Energy Efficiency), in fact,
                    agreed with our basic premise that the projects appeared questionable.

Department          Neither the Field Office nor NREL used the benchmarks to implement
Guidance And        the LDRD program. The Field Office did not ensure that projects
Field Office        funded by the LDRD program were science-based or research and
Awareness           development. Field Office oversight was minimal, consisting of annual
                    briefings by NREL officials. For its part, NREL established an LDRD
                    program that did not have the same scientific focus as the Department's
                    program. For example, NREL's program focused on areas such as
                    promoting renewable energy and energy efficiency technologies that
                    would lead to new funding sources. These areas were not entirely
                    consistent with the objectives shown in the Order.

                    In response to direction from the Assistant Secretary for Energy
                    Efficiency and to our discussions with Field Office and NREL
                    officials, Field Office officials drafted a policy for a new program
                    titled, Director's Discretionary Research and Development Program. On
                    December 15, 1998, the Assistant Secretary issued the policy
                    stating that NREL's new program would be managed in a manner
                    consistent with the Department's policy on LDRD at multi-program
                    funded laboratories. (See Appendix 3.) In his cover memo, the
                    Assistant Secretary directed the Field Office to provide the necessary
                    oversight to ensure that NREL's program is consistent with the policy
                    in both content and implementation.

                    NREL spent about $2.5 million on projects that did not qualify as
Effect Of Funding
                    LDRD. Although the Department and NREL may have benefited from
Questionable        the projects and the costs were allowable, the projects were not LDRD
Projects            and should not have been funded as such. In addition, according to the
                    minutes from the November 11, 1997, LDRD committee meeting, a
                    project was denied additional funds due to the financial shortfall that the
                    LDRD program was experiencing for FY 1998. On December 16,




Page 4                                                                  Details Of Finding
                 1997 and January 6, 1998, the committee denied requests for additional
                 funds for two other ongoing projects. Had NREL not expended funds
                 on questionable projects, it may have been able to provide additional
                 funding for these three projects.

RECOMMENDATION   We recommend that the Manager, Golden Field Office and NREL
                 officials comply with the policies and procedures established by the
                 Assistant Secretary for Energy Efficiency.

MANAGEMENT       Management concurred with the recommendation and stated that the
REACTION         Field Office coordinated with NREL to ensure compliance with the
                 Assistant Secretary’s December 15, 1998, policy. The coordination
                 culminated in the issuance of NREL Policy Number 4-4, Director's
                 Discretionary Research and Development (DDRD) that was effective
                 on March 9, 1999. The NREL policy is designed to fulfill the Assistant
                 Secretary’s requirements (i.e., improved procedures for selection/
                 approval of projects, enhancing accounting and administration controls,
                 etc., at the operational level). In addition, the Field Office and NREL
                 will conduct a follow-up review of the new DDRD program in July
                 1999.

                 Management took exception with the report's conclusion that 21
                 projects involving discretionary research and development were
                 "questionable" because they did not qualify as "LDRD" as defined
                 by the Order. They stated that the report’s conclusion was based on the
                 fact that projects were not solely "science-based or research and
                 development" as defined in the Order. Further, officials from the
                 Energy Efficiency, Field Office, and NREL provided extensive
                 information during the course of the audit regarding the legal and
                 programmatic distinctions between DDRD that takes place at
                 NREL versus LDRD which occurs at multi-program laboratories.
                 According to management, these distinctions are critical for the
                 following reasons:

                    • NREL is the only national laboratory whose mission includes
                      developing and facilitating the commercialization of energy
                      efficiency and renewable energy technologies. This distinction is
                      one of the key reasons why the Order, and its previous versions,
                      does not apply to NREL. DDRD activities are specifically
                      designed to fulfill NREL’s mission.




Page 5                                            Recommendation And Comments
                      • Although the Order and Section 3137 of Public Law 105-85
                        governing LDRD funds do not specifically pertain to NREL,
                        the Field Office and NREL have attempted to incorporate the
                        "spirit" of the Order into discretionary research activities at
                        NREL, including criteria for the selection of projects that are
                        "science based or research and development." However, criteria
                        from the Order does not constitute the sole basis that is used to
                        select individual projects. Again, other factors such as NREL's
                        unique mission (including the exploration and/or development of
                        innovative or creative research opportunities) and the need
                        to address future Department missions also were important
                        considerations that impacted selection decisions.

                   For these reasons, Field Office, NREL, and Energy Efficiency officials
                   did not concur with the auditors that 21 projects were "questionable"
                   under the Order.

AUDITOR COMMENTS   Management's proposed actions are responsive to our recommendation.
                   However, we do not agree with management's basis for taking exception
                   to the finding. We acknowledge that the Order does not specifically
                   apply to NREL. However, both the Field Office and
                   NREL agreed that the Order was the best basis for managing the LDRD
                   program. Thus, it serves as a benchmark for evaluating NREL's LDRD
                   program. Finally, the policy issued by the Assistant Secretary on
                   December 15, 1998, is consistent with the Department's position on
                   LDRD at multi-program funded laboratories.

                   We met with Field Office and NREL officials several times during the
                   audit to discuss our audit results and to provide them with our analyses
                   of the projects we questioned. Although they chose not to give an
                   opinion on the validity of the individual projects, they did acknowledge
                   that the LDRD program should not fund business development projects.
                   The officials also agreed that there was a need for Department guidance
                   regarding the types of projects that should be funded by the LDRD
                   program. In a November 25, 1998, meeting with NREL officials, a
                   senior manager stated that he believed that discretionary research and
                   development funds should be spent on scientific, cutting edge projects
                   and that the projects should not be initiated solely to generate business
                   for NREL. He added that NREL was revising its procedures for project
                   approvals to include a review by a representative of the Director of
                   NREL, who would apply the criteria being developed for the DDRD




Page 6                                             Recommendation And Comments
         program. Finally, he stated that this process should prevent the funding
         of projects like those identified as questionable during the audit.

         On December 17, 1998, we met with representatives for the Assistant
         Secretary for Energy Efficiency to discuss the audit results. A senior
         official stated that he felt that our basic premise for questioning the
         projects was correct. He stated that after seeing a list of the questioned
         projects that he too was skeptical as to their validity as LDRD projects.
         He also expressed regret that NREL had gotten off-track with the
         purpose of some of the projects.




Page 7                                    Recommendation And Comments
COST CONTROLS
Accounting Policy    In March 1996, the Department's Controller established the
                     Department's policy for accounting for LDRD costs. The policy
                     required that LDRD costs (1) be identified and accumulated by
                     individual project; (2) consist of all allocable costs, except for general
                     and administrative expenses; (3) be separately identified in an account
                     containing all LDRD project costs and other allocable costs, except
                     general and administrative expenses; and (4) LDRD project costs
                     incurred in an accounting period not be assigned to any other accounting
                     period. The policy was intended to complement
                     Order 5000.4A, Laboratory Directed Research and Development,
                     which in March 1997 was superceded by Order 413.2.

Improper Transfers   NREL improperly transferred and allocated LDRD project costs and
And Allocations      incurred questionable housing allowance costs. We reviewed 22
                     projects and identified 10 that had problems with cost controls and 7
                     that had problems with housing allowance costs.

                     Our review of the 10 projects with cost control problems showed that
                     NREL inappropriately:

                        • transferred LDRD costs to non-LDRD projects to reduce cost
                          overruns;

                        • transferred LDRD costs to other overhead accounts;

                        • split costs between projects;

                        • charged subcontract costs to projects that were not the
                          beneficiary of the subcontract work performed; and,

                        • distributed housing allowances paid to temporary employees.

                     The inappropriately accounted for costs totaled $72,286.

                     In addition, we identified questionable housing allowances paid to
                     temporary employees. For example, for 7 of the 22 projects reviewed,
                     we questioned $10,177 in housing allowances that appeared to be
                     unreasonable or unallowable.




Page 8                                                                  Details Of Finding
Lack Of Department   The improper transfers, allocations, and questionable housing
Guidance             allowances occurred because of weaknesses in NREL's LDRD program
                     that were brought on by a lack of Department guidance. Although the
                     Controller's March 1996 guidance complemented Department policy
                     on LDRD, it applied only to multi-program laboratories, not to NREL.
                     The Assistant Secretary for Energy Efficiency had not issued a policy
                     at NREL that included guidance on accounting for LDRD costs. On
                     December 15, 1998, the Assistant Secretary issued a policy governing
                     the DDRD program at NREL. (See Appendix 3.) The policy requires
                     NREL to comply with the Department's financial policy for LDRD.

Inaccurate LDRD      NREL's management cost reports did not accurately reflect LDRD
Costs                program costs. Further, program and project costs outside the LDRD
                     program could be impacted because LDRD costs are allocated to NREL
                     programs much like general and administration costs. This puts NREL
                     and the Department at risk because management decisions may be based
                     on these reports.

RECOMMENDATIONS      1. We recommend that the Manager, Golden Field Office and NREL
                        officials take the necessary actions to ensure that LDRD costs are
                        properly accounted for.

                     2. We recommend that the Contracting Officer (1) make a
                        determination on the allowability of questioned housing allowance
                        costs and (2) recover any such costs determined to be unallowable.

                     Management concurred with the first recommendation, stating that it
MANAGEMENT
                     is working with NREL to enhance the accuracy of applicable cost
REACTION
                     reports. Management also stated that it is reviewing procedures
                     governing the manner in which costs are transferred and/or distributed
                     between projects to enhance the accuracy of reports and to ensure that
                     the accounting of costs is proper. The review will be completed in July
                     1999.

                     Management also concurred with the second recommendation, stating
                     that the Contracting Officer is reviewing the $10,177 of questioned
                     housing allowance costs and that the final determination will be made by
                     July 30, 1999. The Contracting Officer will recover from NREL any
                     amounts considered unallowable by August 30, 1999.

                     Management comments and proposed actions are responsive to our
AUDITOR COMMENTS     recommendations.



Page 9                                              Recommendations And Comments
Appendix 1
SCOPE         We performed the audit from July 1998 to January 1999 at the
              Department's Headquarters, and at the Field Office and NREL,
              located in Golden, Colorado.

METHODOLOGY   To accomplish the audit objective, we:

                 • reviewed Department and Field Office guidance on the
                   management of LDRD;

                 • interviewed Field Office and NREL officials to understand their
                   procedures for LDRD;

                 • interviewed Headquarters, Field Office, and NREL officials
                   responsible for managing LDRD at NREL;

                 • reviewed documents concerning the initiation, approval, and
                   completion of LDRD projects;

                 • analyzed the validity of 60 of 116 LDRD projects for FY 1995
                   through FY 1998; and,

                 • reviewed documents concerning specific cost controls for 22
                   LDRD projects for FY 1995 through FY 1998.

              We conducted the audit according to generally accepted government
              auditing standards for performance audits and included tests of internal
              controls and compliance with laws and regulations to the extent
              necessary to satisfy the audit objective. We limited our review of
              internal controls to those controls associated with the management of
              LDRD. Because we limited our review, it would not necessarily have
              disclosed all internal control deficiencies that may have existed at the
              time of our audit. The Field Office had not established performance
              measures for NREL's LDRD program. Therefore, there were no
              measures for us to evaluate. We did not rely extensively on computer-
              generated data. Therefore, we did not fully examine the reliability of the
              computerized data used.

              We held an exit conference with Field Office, NREL, and Headquarters
              officials on June 15, 1999.




Page 10                                                  Scope And Methodology
Appendix 2
                                                Questionable Projects


This appendix shows the 21 projects that we determined to be questionable based on the requirements in
Order 413.2.

                                    Project Title and Objective                                       Cost Through
                                                                                                        9-30-98
 1. NREL International Strategy. Expected outcomes were a greater consideration and                        $444,420
    implementation of renewables in international energy development through an active,
    coordinated, and leadership role of NREL and recognition of NREL as the world leader
    and spokesperson for international applications.
 2. Green Market Initiative. Expected outcomes were to develop a national-level coalition                   417,240
    to promote green power marketing in a restructured electricity industry and generation of
    new business opportunities in supporting the development of the green power market.
 3. Flat Panel Display. Expected outcomes were to hire an individual whose mission would                    179,500
    be to develop relationships with important industries and funding sources. Strategic
    alliances with other companies and institutions were an important factor leading to
    success. Contacts had already been made and attempts were made to acquire outside
    funding for this activity.
 4. Flat Panel Display. The goal of this research was to provide information on certain                     128,510
    materials as deposited on heat sensitive materials presently in use. Subcontracts were
    to (1) test the market for NREL's photovoltaic technology, such as burners and power
    supplies and (2) support an NREL scientist to develop a thermophotovoltaics Internet
    website, plan a conference on thermophotovoltaics, and prepare two articles about
    thermophotovoltaics for publication.
 5. NREL International Strategy. Expected outcome was to expand the international use of                    264,760
    renewable energy in support of sustainable economic development.
 6. South Africa Energy Policy Research. Expected outcomes were to provide policy                           211,960
    analysis and technical assistance in regulation, governance, and market analysis to South
    Africa as it restructures its electricity sector and implements a large electrification effort.
 7. Electronic Information Development. An electronic publication for NREL employees.                       176,900
 8. Renewable Energy Systems Applications. Expected outcomes were the identification of                     176,420
    the various systems and applications engineering activities presently being conducted at
    NREL, and a thorough examination of the issues regarding "in division" versus
    functionally based engineering capability and interlaboratory sensitivities. Also, an
    outcome of the preparation of an implementation plan for the development of a Systems
    Engineering and Applications Capability.
 9. Feasibility of Recycling Nylon 6. Expected outcome was that the industrial partners                      88,560
    would make a decision on the commercialization of the technology.




Page 11                                                                                  Questionable Projects
                                   Project Title and Objective                                      Cost Through
                                                                                                      9-30-98
 10. Workshop on Thermophotovoltaic Converters, Systems and Applications. Expected                        $ 84,830
     outcome was to organize the 2nd NREL conference on TPV Electricity Generation,
     publish the proceedings, and widen awareness of this technology. The goal of the
     conference is to lead the thermophotovoltaic research and development community in
     forming a national program that will ensure that core technologies are developed.
 11. Advance Computing Pilot Project. Expected outcomes were (1) the pilot installation of                126,490
     a distributed file system connecting all UNIX workstations within the Laboratory;
     (2) support of portion of a Cooperative Research and Development Agreement by
     modifying an existing Computational Fluid Dynamics program to operate in parallel on
     multiple computers; and (3) evaluate and install electronic scheduling software on the
     LAN and production of a prototype electronic form.
 12. Builder Guide Software Interface. Expected outcomes were (1) up to 280 utilities with                 32,520
     the capability and option to include passive solar design in demand-side management
     programs; (2) to develop a working relationship with a subset of the Good Cents utilities
     to develop follow-on collaborative programs to design, build, and monitor passive solar
     buildings (homes and small commercial buildings); and (3) to use the Good Cents
     network to make utilities aware of other renewable technologies that NREL is working
     on to be used for demand-side strategies and establishing collaborative relationships to
     pursue these technologies.
 13. Total Energy Management: Expected outcomes were (1) expansion of the renewable                        29,400
     energy and energy efficient technology market and diversification of funding; (2)
     generation of more opportunities for NREL's technical expertise in photovoltaic and
     Wind; and (3) developing a sound business plan to aggressively market to photovoltaic
     and Wind to new customers.
 14. Conference on Frontiers of Pyrolysis: Expected outcomes were to (1) plan, arrange,                    26,340
     host, and report on a specialists conference on the chemistry and engineering of
     pyrolysis; (2) transfer information; (3) foster paradigm-shifting discussions to strengthen
     the scientific basis and the industrial potential for the field of pyrolysis;
     and (4) identify major new applications for plastics recycling and joint processes for both
     plastics and biomass.
 15. Opportunities Electronic Publication. Develop an electronic publication for use by                    21,520
     NREL employees. Facilitate sharing of ideas and experience, stimulate business
     development, get projects moving faster, and encourage the development of cross-
     Laboratory teams with diverse skills.
 16. Buildings Initiatives. The Buildings Initiatives consists of (1) the buildings climate                21,140
     change initiative; (2) the second generation smart window for buildings initiative; (3) the
     policy assessment of energy star labeling of windows initiative; (4) the investigation of
     national potential of micro-gas turbine cogeneration systems for buildings applications
     initiative; (5) the high-efficiency, solid state lighting initiative; and (6) the indoor air
     quality initiative.




Page 12                                                                                Questionable Projects
                                  Project Title and Objective                                    Cost Through
                                                                                                   9-30-98
 17. Technology-Policy Expert System. Expected outcomes were the development of an on-                $ 18,420
     line framework for and the content of a technology-policy expert system including (1) an
     expert system shell; (2) a database of technology-policy studies; (3) a synthesis of
     technology-policy studies and the lessons learned; (4) a technology-policy toolchest to
     enable a range of analyses, including technical, financial, economic, tax, market, carbon
     trading, options valuation, and others; and (5) automated database entry forms to draw in
     broader external interests and input.
 18. U.S. Patent for IR#94-34. Expected outcome was to successfully provide technical                   14,610
     assistance to NREL's legal office to secure an U.S. Patent for IR#94-34, Method for
     Charging a Hydrogen Getter.

 19. Internet Renewables Assessment Guide. Expected outcome was a living database                        5,970
     accessible via the Internet with a characterization of renewable energy technologies,
     resource availability, evaluation methods, and environmental advantages. Also, to make
     NREL the preeminent source of up-to-date information on renewable energy costs and
     performance.
 20. Development of a Computer-Based Electronic Bulletin Board System. Expected                          2,130
     outcomes were a computer hardware and software system, custom bulletin boards, a
     trained administrator, and a means for evaluating the benefits of the system.

 21. Develop Strategic International Internet Capability. To develop a high-value Internet                450
     compatible information, database, and analytical tool capability for international
     activities.

                                                                                   Total Cost       $2,472,090




Page 13                                                                             Questionable Projects
Appendix 3
   ASSISTANT SECRETARY FOR ENERGY EFFICIENCY AND RENEWABLE ENERGY
                               POLICY




Page 14                              Assistant Secretary For Energy Efficiency
                                     and Renewable Energy Policy
Page 15   Assistant Secretary For Energy Efficiency
          and Renewable Energy Policy
                                                                       Report No.: WR-B-99-05


                              CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the back
of this form, you may suggest improvements to enhance the effectiveness of future reports.
Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been
   included in this report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any
questions about your comments.

Name____________________________________Date________________________________

Telephone________________________________Organization__________________________

When you have completed this form, you may telex it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

               Office of Inspector General (IG-1)
               U.S. Department of Energy
               Washington, D.C. 20585
               ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                      following alternative addresses:


                U.S. Department of Energy Management and Administration Home Page
                                      http://www.hr.doe.gov/ig
                                                 or
                                       http://www.ma.doe.gov


      Your comments would be appreciated and can be provided on the Customer Response Form
                                     attached to the report.
